APPENDIX TABLE OF CONTENTS
Opinion of the Court of Criminal Appeals,
State of Oklahoma (March 18, 2021) ....................... 1a
Order of the District Court in and for Tulsa
County State of Oklahoma
(November 12, 2020) ............................................... 10a
Agreed Stipulation
(October 5, 2020, Filed November 12, 2020) ... 16a
Order Remanding for Evidentiary Hearing
(October 9, 2020) ..................................................... 20a

App.1a
OPINION OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA
(MARCH 18, 2021)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
DONTA KEITH DAVIS,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
NOT FOR PUBLICATION
Case No. F-2019-420
Before: Dana KUEHN, President Judge.,
Scott ROWLAND, Vice President Judge.,
Gary L. LUMPKIN, Judge., David B. LEWIS, Judge.,
Robert L. HUDSON, Judge.
ROWLAND, VICE PRESIDING JUDGE:
Appellant Donta Keith Davis appeals his Judgment and Sentence from the District Court of Tulsa
County, Case No. CF-2018-1994, for Robbery with a
Dangerous Weapon (Count 1), in violation of 21
O.S.2011, § 801 and Assault with a Dangerous Weapon
(Count 2), in violation of 21 O.S.2011, § 645, both
After Former Conviction of Two or More Felonies. The

App.2a
Honorable Kelly Greenough, District Judge, presided
over Davis’s jury trial and sentenced him, in accordance
with the jury’s verdict, to life imprisonment on each
count. Judge Greenough ordered the counts to run
consecutively.
Davis appeals raising the following issues:
(1) whether impermissible voir dire undermined
his right to a fair trial;
(2) whether the State presented evidence in
violation of the discovery code;
(3) whether restrictions on the testimony of
expert witnesses operated to undermine his
ability to present a defense;
(4) whether the trial court erred by admitting
testimony of two lay witnesses who did not
witness the robbery;
(5) whether the trial court erred in allowing the
State to elicit irrelevant and prejudicial
evidence;
(6) whether he received effective assistance of
trial counsel;
(7) whether the pretrial identification process
was impermissibly suggestive and unreliable;
(8) whether prosecutorial misconduct denied
him a fair trial;
(9) whether the trial court erred in denying his
request to present alternate perpetrator
evidence;
(10) whether his convictions for both robbery
and assault violated 21 O.S.2011, § 11; and

App.3a
(11) whether his sentences are excessive.
In conjunction with his claim of ineffective
assistance of counsel in Proposition 6, Davis filed a
motion for an evidentiary hearing under Rule 3.11(B),
Rules of the Oklahoma Court of Criminal Appeals,
Title 22, Ch.18, App. (2021). In this motion he asserted
that defense counsel was ineffective for failing to
raise a jurisdictional defect in his prosecution under
18 U.S.C. § 1153 and McGirt v. Oklahoma, 591 U.S.
___, 140 S. Ct. 2452 (2020). We find relief is required
on Davis’s jurisdictional challenge in Proposition 6,
rendering his other claims moot.
On October 9, 2020, this Court remanded this
case to the District Court of Tulsa County for an
evidentiary hearing. The District Court was directed
to make findings of fact and conclusions of law on
two issues: (a) Davis’s status as an Indian; and (b)
whether the crime occurred within the boundaries of
the Muscogee Creek Reservation. Our order provided
that, if the parties agreed as to what the evidence
would show with regard to the questions presented,
the parties could enter into a written stipulation
setting forth those facts, and no hearing would be
necessary.
On November 5, 2020, the parties filed a written
stipulation in the District Court of Tulsa County in
which they agreed: (1) that Davis has some Indian
blood; (2) that he was a registered citizen of the
Muscogee Creek Nation on the date of the charged
offense; (3) that the Muscogee Creek Nation is a
federally recognized tribe; and (4) that the charged
crime occurred within the Muscogee Creek Reservation.
The Honorable Tracy L. Priddy, District Judge, accepted
the parties’ stipulation.

App.4a
On November 12, 2020, the District Court filed
its Findings of Fact and Conclusions of Law. The
District Court found the facts recited above in
accordance with the stipulation. The District Court
concluded that Davis is an Indian under federal law
and that the charged crimes occurred within the
boundaries of the Muscogee Creek Reservation. The
District Court’s findings are supported by the record.
The ruling in McGirt governs this case and requires
us to find the District Court of Tulsa County did not
have jurisdiction to prosecute Davis. Accordingly, we
grant relief on Proposition 6.
DECISION
The Judgment and Sentence of the district court
is VACATED and the matter is REMANDED WITH
INSTRUCTIONS TO DISMISS. Pursuant to Rule
3.15, Rules of the Oklahoma Court of Criminal Appeals,
Title 22, Ch. 18, App. (2021), the MANDATE is
ORDERED to issue in twenty (20) days from the
delivery and filing of this decision.
AN APPEAL FROM THE DISTRICT COURT OF
TULSA COUNTY, THE HONORABLE KELLY
GREENOUGH, DISTRICT JUDGE
APPEARANCES AT TRIAL AND REMAND
Sofia Johnson
Tulsa County Public
Defender’s Office
423 S. Boulder Ave.,
Suite 300
Tulsa, Ok 74103
Counsel for Defendant

App.5a
Erik Grayless
First Asst. District Attorney
John Tjeerdsma
Ray Penny
Asst. District Attorneys
500 S. Denver, Ste. 900
Tulsa, Ok 74103
Counsel for State
APPEARANCES ON APPEAL AND REMAND
Stuart W. Southerland
Tulsa County Public
Defender’s Office
423 S. Boulder Ave.,
Suite 300
Tulsa, Ok 74103
Counsel for Appellant
Mike Hunter
Attorney General of Oklahoma
William R. Holmes
Theodore M. Peeper
Jennifer L. Crabb
Randall Young
Assistant Attorneys General
313 N.E. 21st Street
Oklahoma City, Ok 73105
Counsel for Appellee
OPINION BY: ROWLAND, V.P.J.
KUEHN, P.J.: Concur
LUMPKIN, J.: Concur in Results
LEWIS, J.: Concur
HUDSON, J.: Specially Concur

App.6a
LUMPKIN, JUDGE:
CONCURRING IN RESULTS
Bound by my oath and the Federal-State relationships dictated by the U.S. Constitution, I must at a
minimum concur in the results of this opinion. While
our nation’s judicial structure requires me to apply
the majority opinion in the 5-4 decision of the U.S.
Supreme Court in McGirt v. Oklahoma, ___ U.S. ___,
140 S. Ct. 2452 (2020), I do so reluctantly. Upon the
first reading of the majority opinion in McGirt I
initially formed the belief that it was a result in
search of an opinion to support it. Then upon reading
the dissents by Chief Justice Roberts and Justice
Thomas I was forced to conclude the Majority had
totally failed to follow the Court’s own precedents,
but had cherry picked statutes and treaties, without
giving historical context to them. The Majority then
proceeded to do what an average citizen who had
been fully informed of the law and facts as set out in
the dissents would view as an exercise of raw judicial
power to reach a decision which contravened not only
the history leading to the disestablishment of the
Indian reservations in Oklahoma, but also willfully
disregarded and failed to apply the Court’s own
precedents to the issue at hand.
My quandary is one of ethics and morality. One
of the first things I was taught when I began my
service in the Marine Corps was that I had a duty to
follow lawful orders, and that same duty required me
to resist unlawful orders. Chief Justice Roberts’
scholarly and judicially penned dissent, actually
following the Court’s precedents and required analysis,
vividly reveals the failure of the majority opinion to

App.7a
follow the rule of law and apply over a century of
precedent and history, and to accept the fact that no
Indian reservations remain in the State of Oklahoma.1
The result seems to be some form of “social justice”
created out of whole cloth rather than a continuation
of the solid precedents the Court has established over
the last 100 years or more.
1 Senator Elmer Thomas, D-Oklahoma, was a member of the
Senate Committee on Indian Affairs. After hearing the
Commissioner’s speech regarding the Indian Reorganization
Act (IRA) in 1934, Senator Thomas opined as follows:
I can hardly see where it (the IRA) could operate in a
State like mine where the Indians are all scattered
out among the whites and they have no reservation,
and they could not get them into a community
without you would go and buy land and put them on
it. Then they would be surrounded very likely with
thickly populated white section with whom they
would trade and associate. I just cannot get through
my mind how this bill can possibly be made to operate
in a State of thickly-settled population. (emphasis
added).
John Collier, Commissioner of Indian Affairs, Memorandum of
Explanation (regarding S. 2755), p. 145, hearing before the
United States Senate Committee on Indian Affairs, February
27, 1934. Senator Morris Sheppard, D-Texas, also on the Senate
Committee on Indian Affairs, stated in response to the
Commissioner’s speech that in Oklahoma, he did not think “we
could look forward to building up huge reservations such as we
have granted to the Indians in the past.” Id. at 157. In 1940, in
the Foreword to Felix S. Cohen, Handbook of Federal Indian
Law (1942), Secretary of the Interior Harold Ickes wrote in
support of the IRA, “[t]he continued application of the allotment
laws, under which Indian wards have lost more than two-thirds
of their reservation lands, while the costs of Federal administration of these lands have steadily mounted, must be terminated.”
(emphasis added).

App.8a
The question I see presented is should I blindly
follow and apply the majority opinion or do I join with
Chief Justice Roberts and the dissenters in McGirt
and recognize “the emperor has no clothes” as to the
adherence to following the rule of law in the application
of the McGirt decision?
My oath and adherence to the Federal-State relationship under the U.S. Constitution mandate that I
fulfill my duties and apply the edict of the majority
opinion in McGirt. However, I am not required to do so
blindly and without noting the flaws of the opinion
as set out in the dissents. Chief Justice Roberts and
Justice Thomas eloquently show the Majority’s mischaracterization of Congress’s actions and history with the
Indian reservations. Their dissents further demonstrate
that at the time of Oklahoma Statehood in 1907, all
parties accepted the fact that Indian reservations in
the state had been disestablished and no longer existed.
I take this position to adhere to my oath as a judge
and lawyer without any disrespect to our FederalState structure. I simply believe that when reasonable
minds differ they must both be reviewing the totality
of the law and facts.

App.9a
HUDSON, J., SPECIALLY CONCURS
Today’s decision dismisses convictions for robbery
with a dangerous weapon and assault with a dangerous
weapon from the District Court of Tulsa County based
on the Supreme Court’s decision in McGirt v. Oklahoma, 140 S. Ct. 2452 (2020). This decision is unquestionably correct as a matter of stare decisis based on
the Indian status of Appellant and the occurrence of
these crimes on the Creek Reservation. Under McGirt,
the State has no jurisdiction to prosecute Appellant
for the crimes in this case. Instead, Appellant must
be prosecuted in federal court. I therefore as a matter
of stare decisis fully concur in today’s decision. Further,
I maintain my previously expressed views on the
significance of McGirt, its far-reaching impact on the
criminal justice system in Oklahoma and the need for
a practical solution by Congress. See Bosse v. State,
2021 OK CR 3, ___ P.3d ___ (Hudson, J., Concur in
Results); Hogner v. State, 2021 OK CR 4, ___ P.3d
___ (Hudson, J., Specially Concurs); and Krafft v.
State, No. F-2018-340 (Okl. Cr., Feb. 25, 2021) (Hudson,
J., Specially Concurs) (unpublished).

App.10a
DISTRICT COURT FOR TULSA COUNTY,
STATE OF OKLAHOMA, FINDINGS OF FACT
AND CONCLUSIONS OF LAW
(NOVEMBER 12, 2020)
IN THE DISTRICT COURT IN AND FOR TULSA
COUNTY STATE OF OKLAHOMA
________________________
DONTA KEITH DAVIS,
Defendant/Appellant,
v.
THE STATE OF OKLAHOMA,
Plaintiff/Appellee.
________________________
Tulsa County District Court Case No. CF-2019-1994
Court of Criminal Appeals Case No. F-2019-420
Before: Tracy L. PRIDDY, District Judge.
FINDINGS OF FACT
AND CONCLUSIONS OF LAW
Pursuant to the remand order of the Oklahoma
Court of Criminal Appeals (“OCCA”) issued October
9, 2020, this matter is before the court. The parties
informally advised the court that they had agreed
and stipulated to facts supporting the issues to be
determined and submitted an Agreed Stipulation
including attached documentation from the Muscogee
(Creek) Nation of Oklahoma Citizenship Board that

App.11a
was filed on November 5, 2020. Stuart Southerland
appeared on behalf of Appellant, Donta Keith Davis,
who was not present. Assistant Attorney General
Randall Young appeared for Appellee. Tulsa County
First Assistant District Attorney Erik M. Grayless
also appeared. An evidentiary hearing was deemed
unnecessary.
The Appellant, in his motion to remand for
evidentiary hearing filed in conjunction with his
Brief-in-Chief claims the District Court lacked jurisdiction to try him as he is a citizen of the Muscogee
(Creek) Nation and that his crime occurred within
the boundaries of the Creek Reservation. Appellant’s
claim raises two questions: (a) his Indian status, and
(b) whether the crime occurred on the Creek
Reservation. These issues require fact-finding to be
addressed by the District Court per the OCCA Order
Remanding.
I.

Appellant’s status as an Indian

To determine the Indian status of the Appellant,
the OCCA directed the District Court to make findings
of fact as to whether (1) Davis has some Indian blood,
and (2) is recognized as an Indian by a tribe or the
federal government.1 The Court finds as follows:
Findings of Fact
1. Donta Keith Davis is the named Defendant/
Appellant in the above-entitled matter.
1 United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F.3d 1277, 1280-81(10th Cir. 2001).
Generally Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114, 116.

App.12a
2. The parties hereto stipulated and agreed that
Appellant has 3/32 degree Creek blood.2
3. The parties hereto stipulated and agreed that
Appellant is an enrolled member of the Muscogee
(Creek) Nation and was such at the time of the charged
offenses.3
The parties hereto stipulated and agreed that
the Muscoge (Creek) Nation is an Indian Tribal Entity
recognized by the federal government.4
Conclusions of Law
Regarding the first determination, the Court
answers the first inquiry in the affirmative. The Court
adopted the Agreed Stipulation of the parties, including
the attached documentation filed on November 5,
2020 and made findings of fact thereon. Donta Keith
Davis has 3/32 Creek blood. Although the term
“Indian” is not statutorily defined and various terms
such as “sufficient”5, “substantial”6, “significant percentage of’7 or “some”8 have been used by courts in an
attempt to define the quantity of Indian blood required
to satisfy this inquiry, the OCCA mandate ordered
2 Exhibit 1, Agreed Stipulation 1.
3 Exhibit 1, Agreed Stipulation 2.
4 Exhibit 1, Agreed Stipulation 3.
5 United States v. LaBuff, 658 F.3d 873, 874-75 (9th Cir. 2011)
6 Vialpando v. State, 640 P.2d 77, 79-80 (Wyo. 1982).
7 Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114, 116.
8 United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012).

App.13a
this Court to determine “whether the Appellant has
some Indian blood.”9 Thus, according to the term used
by the OCCA in its Order, this Court concludes
Donta Keith Davis has some Indian blood.
Additionally, the Court answers the second part
of the inquiry in the affirmative. The Court adopted
the Agreed Stipulation including the attached
documentation and made findings of fact thereon.
Donta Keith Davis was enrolled as a citizen of the
Muscogee (Creek) Nation on September 27, 2001 and
was recognized as a citizen of the Muscogee (Creek)
Nation at the time of the offenses. The Muscogee
(Creek) Nation is an Indian Tribal Entity recognized
by the federal government. Therefore, Donta Keith
Davis is recognized as an Indian by a tribe or the
federal government.
Having answered both inquiries in the affirmative,
this Court concludes Donta Keith Davis is an Indian.
II. Whether the Crime
Occurred on the Creek Reservation
The OCCA further ordered the District Court to
determine whether the crime occurred on the Creek
Reservation, referred to as Indian Country.10 The
Court finds as follows:

9 Order Remanding for Evidentiary Hearing October 9, 2020.
10 McGirt v. Oklahoma, 140 S. Ct.2452 (2020); 18 U.S.C. §§ 1152,
1153.

App.14a
Findings of Fact
1. The parties hereto stipulated that the crime
in this case occurred within the Creek reservation
boundaries.11
Conclusions of Law
The final inquiry is answered in the affirmative.
This Court adopted the parties’ Agreed Stipulation and
made findings of fact thereon. Although, the specific
address and location of the crimes was not stipulated
to by the parties, the parties agreed that the location
where the crimes occurred was within the Creek Reservation boundaries. These boundaries were established
through a series of treaties between the Muscogee
(Creek) Nation and the United States Government,
and are explicitly recognized as a reservation defined
by 18 U.S.C. § 1151(a). Based upon the Supreme
Court’s ruling in McGirt v. Oklahoma, 140 S. Ct. 2452,
207 L.Ed.2d 985 (2020), this Court concludes that
the crime occurred on the Creek Reservation which is
Indian Country.
WHEREFORE, this Court finds that Donta Keith
Davis is an Indian and that the crimes for which he
was convicted occurred in Indian Country for purposes
of the General Crimes Act, 18 U.S.C. § 1152 and the
Major Crimes Act, 18 U.S.C. § 1153.

11 Exhibit 1, Agreed Stipulation 4.

App.15a
IT IS SO ORDERED this 12th day of November,
2020.
/s/ Tracy L. Priddy
District Judge

App.16a
AGREED STIPULATION
(OCTOBER 5, 2020, FILED NOVEMBER 5, 2020)
IN THE DISTRICT COURT IN AND FOR TULSA
COUNTY STATE OF OKLAHOMA
________________________
DONTA KEITH DAVIS,
Appellant/Defendant,
v.
THE STATE OF OKLAHOMA,
Appellee/Plaintiff.
________________________
Case No. F-2019-420, CF-2018-1994
Following the United States Supreme Court’s
decision in McGirt v. Oklahoma, 140 S. Ct. 2452 (2020),
the Oklahoma Court of Criminal Appeals remanded
Appellant’s case to this Court on October 9, 2020, for
an evidentiary hearing to determine 1) Appellant’s
status as an Indian, and 2) whether the crimes
occurred on the Creek Reservation. The parties hereby
announce, and request this Court to accept, the
following stipulations:
1.

Appellant has 3/32 degree Creek blood.

2.

Appellant is an enrolled member of the
Muscogee (Creek) Nation and was such at
the time of the charged offenses.

App.17a
3.

The Muscogee (Creek) Nation is an Indian
Tribal Entity recognized by the federal government.

4.

The charged crimes occurred within the Creek
Reservation.

Respectfully submitted this 5th day of October,
2020.
/s/ Stuart W. Southerland
Assistant Public Defender,
Tulsa County
423 S. Boulder Ave.,
Suite 300
Tulsa, Ok 74103
/s/ Jennifer L. Crabb
No. 20546
Assistant Attorneys General
313 N.E. 21st Street
Oklahoma City, Ok 73105
/s/ Erik Grayless
No. 21197
First Asst. District Attorney,
Tulsa County
500 S. Denver, Ste. 900
Tulsa, Ok 74103

App.18a
MUSCOGEE (CREEK)
NATION ENROLLMENT VERIFICATION
(SEPTEMBER 25, 2020)

MUSCOGEE (CREEK) NATION
CITIZENSHIP BOARD
Date: 7/16/2020
To:
Whom It May Concern
From: Muscogee (Creek) Nation
Citizenship Board PO Box 580
Okmulgee, OK 74447
Subject: Enrollment Verification
Re: Name: Donta Keith Davis
Address: 2719 W Easton PI
Tulsa OK 74127-6131
Birthdate: 4/24/1982
Enrollment Date: September 27, 2001
Roll Number: 66305
Degree of Creek Blood: 3/32
I hereby certify that Donta Keith Davis, DOB:
4/24/1982 is enrolled with the Muscogee (Creek) Nation.
Enrollment Date: 9/27/2001 Roll Number: 66305,
Degree of Creek Blood: 3/32

App.19a
/s/ Nathan Wilson
Director
Muscogee (Creek) Nation
Citizens

App.20a
ORDER REMANDING
FOR EVIDENTIARY HEARING
(OCTOBER 9, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
DONTA KEITH DAVIS,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Case No. F-2019-420
Before: David B. LEWIS, President Judge.,
Dana KUEHN, Vice President Judge.,
Gary L. LUMPKIN, Judge., Scott ROWLAND, Judge.,
Robert L. HUDSON, Judge.
Appellant Donta Keith Davis appeals his Judgment and Sentence from the District Court of Tulsa
County, Case No. CF-20181994, for Robbery with a
Dangerous Weapon (Count 1), in violation of 21
O.S.2011, § 801 and Assault with a Dangerous Weapon
(Count 2), in violation of 21 O.S.2011, § 645, both After
Former Conviction of Two or More Felonies. The
Honorable Kelly Greenough, District Judge, presided
over Davis’s jury trial and sentenced him, in accordance
with the jury’s verdict, to life imprisonment on each

App.21a
count.1 Judge Greenough ordered the counts to run
consecutively.
In the motion to remand for evidentiary hearing
filed in conjunction with his Brief-in-Chief, Davis claims
the District Court lacked jurisdiction to try him.
Davis argues that he is a citizen of the Muscogee
(Creek) Nation and that his crime occurred within
the boundaries of the Creek Reservation. Davis relies
on jurisdictional issues addressed in Murphy v. Royal,
875 F.3d 896 (10th Cir. 2017), which was affirmed by
the United States Supreme Court in Sharp v. Murphy,
591 U.S. ___, 140 S. Ct. 2412 (2020) for the reasons
stated in McGirt v. Oklahoma, 591 U.S. ___, 140 S.
Ct. 2452 (2020).
Davis’s claim raises two separate questions: (a)
his Indian status and (b) whether the crime occurred
on the Creek Reservation. These issues require factfinding. We therefore REMAND this case to the
District Court of Tulsa County, for an evidentiary
hearing to be held within sixty (60) days from the
date of this Order.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we request
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Davis’s presentation of
prima facie evidence as to his legal status as an
Indian and as to the location of the crime in Indian
Country, the burden shifts to the State to prove it
has subject matter jurisdiction.
1 Under 21 O.S.Supp.2014, § 13.1, Davis must serve 85% of his
sentence of imprisonment before he is eligible for parole
consideration.

App.22a
The hearing shall be transcribed, and the court
reporter shall file an original and two (2) certified
copies of the transcript within twenty (20) days after
the hearing is completed. The District Court shall
then make written findings of fact and conclusions of
law, to be submitted to this Court within twenty (20)
days after the filing of the transcripts in the District
Court. The District Court shall address only the
following issues:
First, Davis’s status as an Indian. The District
Court must determine whether (1) Davis has some
Indian blood, and (2) is recognized as an Indian by a
tribe or the federal government.2
Second, whether the crime occurred within the
boundaries of the Creek Reservation. In making this
determination the District Court should consider any
evidence the parties provide, including but not limited
to treaties, statutes, maps, and/or testimony.
The District Court Clerk shall transmit the record
of the evidentiary hearing, the District Court’s findings
of fact and conclusions of law, and any other materials
made a part of the record, to the Clerk of this Court,
and counsel for Appellant, within five (5) days after
the District Court has filed its findings of fact and
conclusions of law. Upon receipt thereof, the Clerk of
this Court shall promptly deliver a copy of that
record to the Attorney General. A supplemental
brief, addressing only those issues pertinent to the
evidentiary hearing and limited to twenty (20) pages
2 See United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th Cir. 2001).
See generally Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114,
116.

App.23a
in length, may be filed by either party within twenty
(20) days after the District Court’s written findings
of fact and conclusions of law are filed in this Court.
Provided however, in the event the parties agree
as to what the evidence will show with regard to the
questions presented, they may enter into a written
stipulation setting forth those facts upon which they
agree and which answer the questions presented and
provide the stipulation to the District Court. In this
event, no hearing on the questions presented is
necessary. Transmission of the record regarding the
matter, the District Court’s findings of fact and
conclusions of law and supplemental briefing shall
occur as set forth above.
IT IS FURTHER ORDERED that the Clerk of
this Court shall transmit copies of the following, with
this Order, to the District Court of Tulsa County:
Appellant’s Brief-in-Chief and Motion to Remand for
Evidentiary Hearing filed January 10, 2020; Appellee’s
Answer Brief filed June 9, 2020; and Appellant’s
Reply Brief filed June 25, 2020.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 9th day of October, 2020.
/s/ David B. Lewis
Presiding Judge
/s/ Dana Kuehn
Vice President Judge

App.24a
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge
ATTEST
/s/ John D. Hadden
Clerk

